FEDERAL
EMPLOYEES’
COMPENSATION
ACT
Internal Control
Weaknesses Limit
Effective Case
Management and
Program Oversight




      OIG-14-2 Federal Employees’ Compensation Act
                 Office of Inspector General
           U.S. Government Accountability Office
                      Report Highlights

September 30, 2014


FEDERAL EMPLOYEES’ COMPENSATION ACT
Internal Control Weaknesses Limit Effective Case
Management and Program Oversight

Objective

This report addresses the extent to which GAO has effectively managed
its FECA program to ensure that it pays only valid claims for continuation
of benefits, and that employees are returned to work when able.

What OIG Found

GAO has not effectively managed its FECA program to ensure that it
pays only valid claims for continuation of benefits, and employees are
returned to work when able. Information documenting eligibility of
employees receiving benefits is generally outdated and not maintained. In
addition, efforts to identify employees for reemployment and pursue
options to return them to suitable work are limited. Third-party cases are
not monitored to minimize GAO’s workers’ compensation program costs.
Furthermore, policy intended to prevent, identify, and report potential
fraud for investigation lacks specific fraud-prevention controls and is
outdated.

What OIG Recommends

OIG recommends that the Comptroller General direct the Chief Human
Capital Officer to immediately develop and implement: operational
procedures that include specific case documentation procedures to be
followed by HCO case management specialists; clearly defined
procedures that establish a framework and delineate responsibilities
within GAO for identifying candidates for reemployment and developing
reemployment strategies that foster improved return-to-work outcomes;
and policy and procedures addressing the responsibilities of GAO
employees and management in identifying and reporting potential third-
party liability claims. To help reduce the risk of and identify potential fraud
within GAO’s program, OIG recommends establishing specific workers’
compensation fraud-prevention controls. In addition, OIG recommends
updating the existing workers’ compensation policy to reflect current GAO
policy requiring all GAO officers and employees to promptly notify the
GAO OIG concerning the possible existence of FECA program fraud,
waste, and abuse. GAO agreed with OIG’s recommendations and stated
that the agency intended to act on them. However, GAO disagreed with
some of the characterizations in the draft report.



                                       OIG-14-2 Federal Employees’ Compensation Act
                                             United States Government Accountability Office


Letter
September 30, 2014



Memorandum For:       Gene L. Dodaro
                      Comptroller General of the United States


From:                 Adam R. Trzeciak
                      Inspector General


Subject:      Transmittal of Office of Inspector General (OIG) Audit Report

Attached for your information is our final report, Federal Employee’s Compensation Act:
Internal Control Weaknesses Limit Effective Case Management and Program Oversight
(OIG-14-2). The audit objective was to evaluate the extent to which GAO has effectively
managed its FECA program to ensure that it pays only valid claims for continuation of
benefits and that employees are returned to work when able.
The report contains five recommendations aimed at improving the workers’ compensation
program at GAO. GAO agreed with our recommendations, but disagreed with some of the
characterizations in the draft report. The agency also provided technical comments that we
incorporated, as appropriate. Management comments are included in Appendix III of our
report. Actions taken in response to our recommendations are expected to be reported to
our office within 60 days.
We are sending copies of this report to the other members of GAO’s Executive Committee,
GAO’s Audit Advisory Committee, and other managers with workers’ compensation program
responsibilities. The report is also available on the GAO website at
http://www.gao.gov/about/workforce/ig.html.
If you have questions about this report, please contact me at (202) 512-5748 or
trzeciaka@gao.gov.




Attachment




Page i                                         OIG-14-2 Federal Employees’ Compensation Act
                                                      Table of Contents

Introduction .......................................................................................................................... 1

Objective, Scope, and Methodology ..................................................................................... 1

Background .......................................................................................................................... 2

Internal Control Weaknesses Limit Effective Workers’ Compensation Case Management
         and Program Oversight........................................................................................... 6

Conclusions ........................................................................................................................ 20

Recommendations.............................................................................................................. 20

Agency Comments and Our Evaluation .............................................................................. 21

_________________________________________________________________________

Appendix I: Objective, Scope and Methodology.................................................................. 24

_________________________________________________________________________

Appendix II: Age and Costs of GAO’s Workers’ Compensation Cases, as of
            December 14, 2013 ......................................................................................... 26

_________________________________________________________________________

Appendix III: Comments from the U.S. Government Accountability Office .......................... 27

_________________________________________________________________________

Appendix IV: Major Contributors to This Report .................................................................. 32

_________________________________________________________________________

Appendix V: Report Distribution .......................................................................................... 33

_________________________________________________________________________




Page ii                                                                OIG-14-2 Federal Employees’ Compensation Act
Figures

Figure 1: GAO’s Workers’ Compensation Case Profile, as of December 14, 2013 ............... 3

Figure 2: Elapsed Years Between the OIG Review of GAO FECA Files and the Last
          Medical Evidence Found in Wage-Loss Compensation Case Files........................ 8

Figure 3: Elapsed Years Between the OIG Review of GAO’s FECA Files and the Last
          Medical Evidence Found in Medical Benefits Only Case Files ............................... 8

Figure 4: Example of Outdated Medical Evidence Hampering GAO from Monitoring FECA
          Eligibility and Benefit Payments ............................................................................. 9

Figure 5: Example of Medical Evidence That Was Not Maintained Preventing GAO from
          Monitoring FECA Eligibility and Benefit Payments ................................................. 9

Figure 6: Documentation to Promptly Stop Improper Payments Was Not Maintained ......... 10

Figure 7: Case Example of Death Benefit Evidence That Was Not Maintained................... 11

Figure 8: Elapsed Years Between the OIG Review of GAO FECA Files and the Last Follow-
          up with Employees’ Treating Physicians Found in Wage-Loss Compensation
          Case Files ........................................................................................................... 13

Figure 9: Example of No Follow-Up with Treating Physician Hindering Potential Re-
          employment ......................................................................................................... 14

Figure 10: Example of No Referral to a Physician Specialist to Help Determine Potential Re-
           employment ....................................................................................................... 16

Figure 11: Example of No Referral to a Physician Specialist to Help Determine Potential Re-
           employment ....................................................................................................... 16

Figure 12: Example of No Contact with Employee Preventing GAO from Assessing the
           Employee’s Ability to Return to Work ................................................................. 17

Figure 13: Example of a Third-Party Settlement with Missing Statement of Recovery ........ 19

_________________________________________________________________________




Page iii                                                            OIG-14-2 Federal Employees’ Compensation Act
Table

Table 1: Frequency of Medical Evidence Review by Case Status......................................... 7




Abbreviations

CHCO        Chief Human Capital Officer
DOL         Department of Labor
FECA        Federal Employees’ Compensation Act
HCO         Human Capital Office
iFECS       Integrated Federal Employees’ Compensation System
OGC         Office of the General Counsel
OIG         Office of Inspector General
OWCP        Office of Workers’ Compensation Programs
POWER       Protecting Our Workers and Ensuring Reemployment
SSA         Social Security Administration




Page iv                                              OIG-14-2 Federal Employees’ Compensation Act
Introduction

The Federal Employees’ Compensation Act (FECA) 1 is a workers’ compensation program
that provides compensation to federal employees who are injured or become ill, and to the
survivors of workers who die, in the performance of their jobs. Compensation for lost
wages and medical benefits represents a significant financial exposure, i.e., a program
responsibility that may legally commit GAO or create the expectation for future federal
spending by GAO. To minimize costs and prevent potential fraud, controls must be in
place and properly designed to ensure that agencies pay only valid claims for continuation
of benefits, and that employees are returned to work when able.

Objective, Scope, and Methodology

This report addresses the extent to which GAO has effectively managed its FECA program
to ensure that it pays only valid claims for continuation of benefits and that employees are
returned to work when able. To achieve our audit objective, we identified and reviewed
applicable policies, procedures, laws, and regulations. We interviewed Human Capital
Office (HCO) managers and staff who administer GAO’s FECA program. In addition, we
met with GAO’s Chief Human Capital Officer (CHCO) and Deputy CHCO, the Director of
Employee Relations and Benefits, and Office of the General Counsel (OGC), Legal
Services attorneys to obtain their perspectives on GAO policies and procedures for
workers’ compensation case management and oversight.
We also reviewed GAO’s Chargeback Billing List Detail for July 1, 2012 through
September 30, 2013. The Chargeback Billing List is a statement containing the names of,
and costs for, current and former GAO employees receiving FECA benefits: wage-loss
compensation, medical benefits only, and death benefits. We identified 31 individuals
receiving benefits and reviewed available case files for these individuals to determine
whether they contained current information documenting their continuing eligibility for
benefits and evidence of efforts to return employees to work, if applicable. We used GAO’s
Standards for Internal Control in the Federal Government, 2 GAO’s workers’ compensation
policy, 3 and federal laws and regulations governing FECA to determine whether GAO has
established effective internal controls for case management and oversight. We obtained
and analyzed compensation and bill payment history electronic data from the Department
of Labor’s (DOL) Integrated Federal Employees’ Compensation System (iFECS), from
June 15, 1978 to December 14, 2013, for all 31 FECA recipients. To assess the accuracy
of key data elements, we selected a simple random sample of compensation and bill
payment transactions for the 31 FECA recipients that occurred between June 1, 2002 and
December 14, 2013—the most current timeframes for which data were available at the
time we initiated our audit. We determined the data were sufficiently reliable for the
purposes of this report (see attachment I for further details).
We conducted this performance audit from September 2013 through September 2014 in
accordance with generally accepted government auditing standards (GAGAS), except for
the quality control and assurance standard requiring an external peer review of our audit

1
    5 U.S.C. § 8101, et seq.
2
  GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (Washington, D.C.:
November 1999).
3
  GAO Order 2810.1: Line-of-Duty Injury Benefits For Government Accountability Office Employees Under the
Federal Employees’ Compensation Act (August 23, 2005).




Page 1                                                  OIG-14-2 Federal Employees’ Compensation Act
organization every three years. This exception did not affect the planning or performance
of our audit. The Office of Inspector General is scheduled for a peer review in fiscal year
2015. GAGAS requires that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.

Background

The FECA Program and Benefits

The Division of Federal Employees’ Compensation in the Office of Workers’
Compensation Programs (OWCP) within DOL administers the FECA program, which
provides compensation benefits, medical benefits, and specified injury award payments to
federal employees who suffer disabilities resulting from work-related injuries or diseases.
After OWCP adjudicates and approves claims submitted by employees who are injured in
the performance of their official duties, OWCP manages distribution of program benefits in
the form of compensation for lost wages, schedule awards (i.e., other payments made for
the loss of, or loss of use of, a body part or function), and medical benefits. OWCP
provides these benefit payments from a compensation fund that federal departments and
agencies pay into with operating appropriations.
An employee could be entitled to one or more of the following types of benefits:
Medical benefits. FECA pays for medical treatment for injuries or illnesses caused by
work. The program makes payments for necessary medical services from the employee’s
choice of physician. Medical benefits may continue as long as the conditions from the
work-related injury persist. Some cases involve injuries, for which the employee is entitled
to medical treatment only (“medical benefits only” cases). In other cases, the illness or
injury prevents the employee from working, so the employee may receive wage-loss
compensation.
Disability (wage-loss) compensation. If an employee is unable to work due to a work-
related illness or injury, FECA compensation covers a portion of the employee’s pay. 4 This
compensation benefit (in lieu of the employee’s regular pay) is tax-free and continues to
be paid as long as the disability persists, even after retirement age. The compensation
benefits are capped at 75 percent of the monthly pay of the maximum rate of basic pay for
GS-15, step 10. Compensation benefits are subject to an annual cost-of-living adjustment.
Employees cannot receive wage-loss compensation payments at the same time they
receive certain other federal disability or retirement benefits, or they must have benefits
reduced to eliminate duplicate payments. For example, Social Security Administration
(SSA) disability benefits are reduced if an individual is also receiving FECA payments.
Death benefits. Family members of an employee who is killed by a workplace injury or
illness may receive recurring compensation payments to partially replace the worker’s



4
 If the employee is unable to work, the compensation benefit is equal to two-thirds of the injured employee’s
pay for single employees and three-fourths of the injured employee’s pay for employees who are married or
have dependents. If the employee can return to part-time, lighter-duty, or other work at a lower pay rate, the
compensation benefit is two-thirds or three-fourths the difference between the salary for the light-duty position
and the injured employee’s regular duty position.




Page 2                                                      OIG-14-2 Federal Employees’ Compensation Act
capacity to provide for the family. The amount and duration of such payments depend on
the relationship and ages of the family members. 5
GAO’s Workers’ Compensation Case Profile
Our review focused on 31 cases that appeared on GAO’s Chargeback Billing List Detail
during the period July 1, 2012 through September 30, 2013—the most current information
available at the time we initiated our audit. These 31 cases ranged in age from less than
one year to over 40 years. Our analysis of OWCP’s iFECS electronic information, from
June 15, 1978, to December 14, 2013, showed that GAO paid more than $20.3 million in
workers’ compensation benefits to these 31 individuals—14 recipients of wage-loss
compensation, 12 recipients of medical benefits only, and 5 recipients of death benefits.
(See figure 1.)

Figure 1: GAO’s Workers’ Compensation Case Profile, as of December 14, 2013




GAO’s total FECA costs for the past year were almost $1.1 million. 6 GAO estimates that
future actuarial liabilities for FECA compensation payments to those receiving benefits, as
of September 30, 2013, would total an additional $16.7 million (this amount does not


5
  For example, if the employee’s spouse has no children, then the spouse is eligible for a monthly benefit equal
to 50 percent of the employee’s monthly wage at the time of death. If the employee’s spouse has one or more
children, then the spouse is eligible for a monthly benefit equal to 45 percent of the employee’s monthly wage
at the time of death and each minor child is eligible for a monthly benefit equal to 15 percent of the employee’s
monthly wage at the time of death, up to a maximum family benefit of 75 percent of the employee’s monthly
wage at the time of death.
6
  Workers’ compensation costs are assigned to GAO annually at the end of the fiscal accounting period for the
program, which runs from July to June. Each year, Labor furnishes GAO with a “chargeback report” which is a
statement of payments made from the Employees’ Compensation Fund that accounts for injuries to its
employees. GAO’s Chargeback Billing List Detail for fiscal account period, July 1, 2012 through June 30, 2013,
showed that GAO paid over $1.1 million in workers’ compensation benefits. GAO includes these amounts in its
budget requests to Congress. Sums appropriated are deposited into the fund. The Consolidated and Further
Continuing Appropriations Act, 2013 § 1611 (a) authorizes GAO to deposit available balances of expired
appropriations into the Employees’ Compensation Fund. Pub. L. No. 113-6, §1611(a), 127 Stat. 198 (2013).




Page 3                                                     OIG-14-2 Federal Employees’ Compensation Act
include any costs for workers added to the FECA rolls in future years). 7 For more
information about the age and costs of each case in figure 1, see appendix II.

Roles and Responsibilities for Managing GAO’s FECA Program

OWCP has responsibility for adjudicating claims for benefits, however, GAO has financial
and management responsibilities for its own FECA cases. For example, claims examiners
at DOL are responsible for proactively managing cases for benefit recipients until they
return to work, are found to be entitled to reduced compensation when they are
determined to have a wage-earning capacity, or are determined to have no reemployment
potential for an indefinite period of time.
On the other hand, Department of Labor Publication CA-810, Injury Compensation for
Federal Employees, 2009 revision, encourages “active management of workers’
compensation programs by agency personnel” to, among other things, contain costs.
Program costs are borne by the agency, not OWCP. As such, GAO has a strong financial
incentive to minimize expenses by ensuring both eligibility and suitable employment
throughout the benefit eligibility period. This includes actions such as: maintaining
documentation, monitoring medical information of, and staying in touch with, injured
employees, identifying suitable jobs and returning employees to work as soon as possible.
According to GAO Order 2810.1, GAO’s workers’ compensation program is intended to
provide case management and oversight services to
•   ensure that employees receive complete and timely benefits,
•   facilitate employees’ recovery from work injuries,
•   provide job opportunities that will return employees to work as soon as possible while
    accommodating their medical needs resulting from work related injuries, and
•   prevent inappropriate benefits and unnecessary costs.
The order describes the authorities and establishes the policies, and roles and functions of
GAO management officials for administering and managing GAO’s workers’ compensation
program. The following officials and offices have roles with varying responsibilities in
GAO’s FECA program:
•   The CHCO is the accountable official for GAO’s program and is responsible for
    providing program oversight and ensuring agency-wide program effectiveness.
•   HCO is responsible for the day-to-day administration of FECA in GAO.
•   Unit heads are responsible for ensuring that supervisors, in conjunction with HCO case
    management specialists, monitor the medical status of injured employees and offer
    them medically appropriate limited or light work duties 8 during recovery.


7
  GAO, U.S. Government Accountability Office Performance and Accountability Report for Fiscal Year 2013,
GAO-14-2SP (Washington, D.C.: December 16, 2013).
8
  Limited duty assignments include duties from the injured employee’s regular position that meet the
employee’s current work capabilities as identified by a physician. Light duty assignments include duties that
are outside an employee’s regular position, but that meet the employee’s current work capabilities, as
identified by a physician. Limited or light duty assignments may be performed for a full work shift or for shorter
time periods.




Page 4                                                       OIG-14-2 Federal Employees’ Compensation Act
•      OGC is responsible for providing advisory services to HCO and to management
       officials to assist in effective case management, and legal opinions, where appropriate,
       to ensure that applicable laws regarding employee rights and responsibilities are
       observed.

Management Challenges Associated with FECA Programs

In reports on the FECA program, 9 GAO reported that Labor and IGs from employing
departments and agencies have consistently reported similar FECA program-management
challenges, such as oversight, and have linked increased program costs to improper
payments. 10 For example, GAO reported that a 2012 Labor IG report found that Labor did
not always take timely action to terminate benefits when notified of FECA claimants’
deaths and had not designed effective procedures to ensure that benefit payments were
reduced for FECA claimants who were collecting SSA retirement benefits. 11 In another
report, GAO stated that every year since 2004, Labor has indicated in its annual
Performance and Accountability Report that adequately overseeing the FECA program is
one of its chief management challenges. Labor cites verification of beneficiaries’ eligibility
as one of the oversight difficulties that it faces. Moreover, GAO reported that IGs from
agencies that participate in FECA have reported that certain policies and procedures did
not exist within their agencies, or when they did exist, these agencies did not always follow
them. Most often these deficiencies were related to a lack of controls that would have
enabled staff to verify beneficiaries’ continued eligibility. 12
In 1999, GAO OIG reported deficiencies in GAO’s management of workers’ compensation
cases that added significantly to the agency’s FECA program costs and increased its
vulnerability to waste and abuse. 13 These deficiencies were related to a lack of certain
controls, to include the lack of a policy for returning injured employees to work; limited
case management and inadequate case documentation; and limited access to or use of
legal, investigative, and medical expertise needed to protect GAO’s interests. In our report,
we outlined specific actions that supported proactive FECA case management such as
•      maintaining a copy of OWCP’s official files.
•      developing a management information system (with appropriate privacy safeguards)
       that includes claims financial history, description of most recent diagnosis and
       determination of disability, expected recovery times and work limitations for the
       diagnosis, chronological record of efforts to find employment for persons whom OWCP
       does not consider totally disabled.

9
 GAO, Federal Employees’ Compensation Act: Status of Previously Identified Management Challenges,
GAO-12-508R (Washington, D.C.: Mar. 21, 2012), and GAO, Federal Employees’ Compensation Act: Case
Examples Illustrate Vulnerabilities That Could Result in Improper Payments or Overlapping Benefits,
GAO-13-386 (Washington, D.C. Apr. 3, 2013).
10
   An improper payment is defined as any payment that should not have been made or that was made in an
incorrect amount (including overpayments and underpayments) under statutory, contractual, administrative, or
other legally applicable requirements. It includes any payment to an ineligible recipient, any payment for an
ineligible good or service, any duplicate payment, payment for a good or service not received (except for such
payments where authorized by law), and any payment that does not account for credit for applicable discounts.
31U.S.C. § 3321 note.
11
   GAO-12-508R.
12
     GAO-13-386.
13
     OIG, Review of GAO’s Management of Workers’ Compensation Cases (Washington, D.C.: June 21, 1999).




Page 5                                                    OIG-14-2 Federal Employees’ Compensation Act
•      involving OGC in reviewing employees’ case histories and formulating strategies to
       address or avoid problems.
•      obtaining access to physician and nurse consultants in selected cases to, among other
       things, examine employees to confirm diagnoses, assess work limitations, and assist
       in assessing the suitability of available employment opportunities or identifying other
       workplace accommodations, and helping GAO correspond with the employees’ health
       care professionals to clarify treatment plans and assessments of work limitations.
•      obtaining access to investigator resources and applying other information gathering
       techniques to corroborate selected employees’ assertions of total disability.
We noted that a significant outcome of these changes would be a program much less
vulnerable to waste and abuse.

Internal Control Weaknesses Limit Effective Workers’ Compensation Case
Management and Program Oversight

GAO has not effectively managed its FECA program to ensure that it pays only valid
claims for continuation of benefits and employees are returned to work when able.
Information documenting eligibility of employees receiving benefits is generally outdated or
not maintained. In addition, GAO’s efforts to identify employees for re-employment and
return them to suitable work are limited. Third-party liability cases are not monitored to
minimize GAO’s workers’ compensation program costs. Furthermore, GAO’s policy
intended to prevent, identify, and report potential fraud for investigation lacks specific
fraud-prevention controls and is outdated.

Information Documenting Eligibility of Employees Receiving Benefits is Generally
Outdated or Not Maintained

       Most Medical Records Used to Monitor Eligibility are Outdated and Not
       Maintained

To support payment of continuing compensation, federal regulations 14 state that medical
evidence must be submitted whenever OWCP requests it but ordinarily not less than once
a year. 15 OWCP guidelines for the frequency of case reviews vary by case status. 16 For
example, for those employees with more serious conditions not likely to improve and for
employees over the age of 65, OWCP may require less frequent documentation, but
ordinarily not less than once every three years. 17 (See table 1.)



14
     20 C.F.R. § 10.501(a)(1).
15
   According to the Department of Labor Injury Compensation for Federal Employees, Publication CA-810
(Revised 2009)—the handbook for federal agency personnel specialists, compensation specialists, and
supervisors—compensation payments for total disability may continue as long as the medical evidence
supports total disability. However, only rarely is an employee declared permanently and totally disabled.
Department of Labor Publication CA-810 § 7-1 (A)(2).
16
   Every case file acquires a pay status code (or case status code) when it is created and retains such a status
throughout its existence. Before the case is adjudicated, the pay status code reflects whether it has been
reviewed, and afterwards it reflects whether and what benefits are being paid or are payable.
17
   20 C.F.R. § 10.501(a)(2).




Page 6                                                      OIG-14-2 Federal Employees’ Compensation Act
Table 1: Frequency of Medical Evidence Review by Case Status
     Frequency of Review                           Case Status
     Every year                                    Medical evidence indicates extended disability is anticipated.
                                                   The employee is entitled to wage-loss compensation, capped at
                                                   75 percent of the monthly pay of the maximum rate of basic pay
                                                   for GS-15, step 10.
     Every 2 years                                 Medical evidence indicates some wage-earning capacity. The
                                                   employee is entitled to wage-loss compensation at a reduced
                                                   rate, reflecting a partial wage-earning capacity or actual
                                                   earnings.
     Every 3 years                                 Medical evidence indicates employee has no wage-earning
                                                   capacity or re-employment potential for the indefinite future. The
                                                   employee is entitled to wage-loss compensation for the indefinite
                                                   future.
 Source: OIG analysis of OWCP Procedural Manual.

GAO workers’ compensation policy requires HCO to maintain sufficient up-to-date
information on employees’ medical conditions and rehabilitation efforts to document their
progress in recovery and rehabilitation, and their potential to resume employment. 18
OWCP procedures call for this medical evidence to include, among other things, specific
information regarding the employees’ diagnosis, treatment plan, and prognosis for
continued recovery. In addition, GAO’s policy states that HCO will visit DOL’s District
Office at least twice a year to assure GAO’s files are complete.
Our review of workers’ compensation case files for GAO’s 23 employees 19 receiving wage-
loss compensation and medical benefits only showed, with few exceptions, no evidence of
recent collection of medical information. In most wage-loss compensation files, the most
recent medical information was 3 or more years old, as shown in figure 2.




18
     GAO Order 2810.1.
19
  Although 26 employees were receiving wage-loss compensation and medical benefits only, HCO could not
provide workers’ compensation case files for 2 employees and 1 case file involved an employee whose case
transferred to another federal agency.




Page 7                                                           OIG-14-2 Federal Employees’ Compensation Act
Figure 2 Elapsed Years Between the OIG Review of GAO FECA Files and the Last Medical Evidence
Found in Wage-Loss Compensation Case Files




In medical benefits only case files, the most recent medical information for 4 cases was 1
year old or less, and between 1 and 16 years old in 6 cases, as shown in figure 3.

Figure 3 Elapsed Years Between the OIG Review of GAO FECA Files and the Last Medical Evidence
Found in Medical Benefits Only Case Files




Page 8                                             OIG-14-2 Federal Employees’ Compensation Act
As of December 14, 2013, all 23 individuals continued to receive FECA compensation
benefits, many without recent medical evidence to support their claims. If any individual’s
medical condition has improved, payments to that individual could be improper.
GAO has not established operational procedures or provided guidance on who is
responsible for maintaining medical evidence; ensuring that the medical evidence includes
the required information; determining timeframes for collecting and evaluating medical
evidence; and following up if medical evidence is not received within specified timeframes.
Without such procedures or guidance, GAO lacks assurances that the agency pays only
valid claims, which increases the risks of improper payments and potential fraud.
Figure 4 illustrates a case where monitoring eligibility is hampered by the age of the
medical evidence.

Figure 4: Example of Outdated Medical Evidence Hampering GAO from Monitoring FECA Eligibility
and Benefit Payments

 A GAO employee, who was 72 years old, as of December 14, 2013, separated from GAO service on
 disability retirement and filed a notice of occupational disease and claim for compensation in 1988. In 2008,
 HCO sent a letter to OWCP requesting the status of the employee’s level of work capacity (e.g., information
 relevant to the return-to-work effort, especially work tolerance limitations) and requesting that an OWCP
 physician examine the employee. GAO’s FECA case file does not contain any documentation of an OWCP
 response or HCO follow-up. The most recent medical report in the case file is more than 14 years old.
 Without current medical information, it is difficult for GAO to monitor changes in the employee’s condition
 that could affect his or her benefit payments, or continuing eligibility. The employee continued to receive
 more than $4,000 a month in compensation benefits as of December 14, 2013. Between June 1, 2002, and
 December 14, 2013, the employee has received more than $540,900 in compensation benefits and
 $218,660 in medical expenses.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data

Figure 5 illustrates another case where medical evidence was not maintained to monitor
payment of continuing wage-loss compensation.

Figure 5: Example of Medical Evidence That Was Not Maintained Preventing GAO from Monitoring
FECA Eligibility and Benefit Payments

 An employee, who was 82 years old, as of December 14, 2013, sustained an injury 34 years ago and has
 been on GAO’s disability rolls since then. In 1983, the employee separated from GAO service on disability
 retirement. GAO’s FECA case file does not contain any medical documentation concerning the employee’s
 accepted work-related condition or the nature and extent of the employee’s continuing disability.
 Without maintaining medical information in the file, it is difficult for GAO to monitor the employee’s FECA
 eligibility and changes to the employee’s condition that could affect the amount and type of his or her
 benefit payments. The employee continued to receive more than $4,700 monthly in compensation benefits,
 as of December 14, 2013, and a total of more than $640,000 in compensation payments between June 1,
 2002, and December 14, 2013, even though, based on our review and analysis of OWCP bill pay history
 data, the employee had not incurred any medical expenses during this same time period. In September
 2014, we determined that the employee had been deceased since April 2013. If GAO had been monitoring
 this case, it may have identified and prevented improper payments made to the deceased employee for 10
 months.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data.


      Two Case Files were Missing

GAO workers’ compensation policy requires HCO to maintain case files documenting the
history and status of all GAO employees receiving workers’ compensation benefits.
According to Standards for Internal Control in the Federal Government, all transactions,
and other significant events need to be clearly documented, and the documentation should


Page 9                                                                          OIG-14-2 Federal Employees’ Compensation Act
be readily available. Further, the standards state that all documentation and records
should be properly managed and maintained. Internal control helps GAO effectively
manage and safeguard resources.
HCO could not provide workers’ compensation case files for 2 employees—1 receiving
wage-loss compensation payments and the other receiving medical benefits only.
Between June 1, 2002, and December 14, 2013, these employees received more than
$614,000 in FECA benefits. Without readily available workers’ compensation case files, it
is difficult to determine if HCO has actively managed these cases, including ensuring that
benefits are appropriate and costs are necessary.

       One Case File Lacked Documentation to Prevent Improper Payments

Federal law 20 states that the agency gaining an employee as a result of transfer of
functions is required to pay the employee’s FECA compensation benefits and other
expenses. Our review of workers’ compensation case files for GAO’s employees receiving
wage-loss compensation and medical benefits identified 1 employee whose position was
transferred to another agency and who was still receiving payments (i.e., improperly paid
by GAO) for medical and other expenses after 17 years. (See figure 6.)

Figure 6: Documentation to Promptly Stop Improper Payments Was Not Maintained
 An employee who was injured while working at GAO in 1990 had his or her job function transferred to
 another federal agency in 1996 pursuant to legislative action. In 1999, the GAO IG notified GAO’s Director
 of Personnel that the Office of the General Counsel—pursuing a matter we brought to its attention—found
 that the cost of FECA benefits should have been transferred from GAO to the other federal agency in
 1996. Based on OIG records, in 2000, the Director sent two letters to Labor requesting that all of the
 former employee’s FECA costs for fiscal year 1999 be transferred to the other federal agency and
 adjustments be made to GAO’s chargeback report to reflect the overpayments in fiscal years 1997 and
 1998, totaling $84,000. There is no evidence in GAO’s workers’ compensation file regarding our
 notification to HCO or correspondence between HCO, Office of General Counsel, and OWCP about the
 improper payments.
 As a result, GAO did not promptly stop FECA payments and continued to make them for over 17 years. In
 response to our current audit, HCO notified OWCP about GAO’s continued improper payments. In 2014,
 OWCP transferred the former employee’s case to the appropriate federal agency. Between June 1, 2002,
 and December 14, 2013, GAO improperly paid another $23,000 in medical benefits, of which GAO
 recovered about $845 – the cost billed to GAO between July 1, 2012 and June 30, 2013.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data.


       Most Records to Confirm Death Benefit Coverage and Entitlement are Not
       Maintained

GAO workers’ compensation policy states that HCO maintains case files documenting the
history and status of all GAO employees receiving workers’ compensation benefits.
Standards for Internal Control in the Federal Government emphasize that all transactions
and other significant events need to be clearly documented, and all documentation and
records should be properly managed and maintained.
Our review of the 5 death case files showed that most do not contain documents used to
confirm death benefit coverage and entitlement. Out of the 5 case files,



20
     5 U.S.C. § 8147(b).




Page 10                                                                         OIG-14-2 Federal Employees’ Compensation Act
•      None had evidence to demonstrate that HCO had obtained a notice of death and claim
       for compensation, which provides such basic information as the surviving spouse’s
       name, date of birth, and social security number; nature of injury or occupational illness;
       and cause of death.
•      None had evidence to demonstrate that HCO had obtained a marriage certificate
       which provides verification of the relationship to the deceased GAO employee and
       entitlement to benefits.
•      Three had no evidence to demonstrate that HCO had obtained a copy of the
       employee’s death certificate.
•      Four had no evidence to demonstrate that HCO had obtained a claim for continuation
       of compensation. For the one case that included such evidence, the verification
       information was no longer current (more than 6 years old).
As of December 14, 2013, all 5 individuals’ families continued to receive FECA
compensation benefits without sufficient evidence to support their claims.

Figure 7 illustrates a case missing evidence to support a death benefit claim, preventing
GAO from monitoring eligibility for those benefits.

Figure 7: Case Example of Death Benefit Evidence That Was Not Maintained
    An employee who suffered a work-related illness more than 4 decades ago continued to receive wage-loss
    compensation until his or her death. OWCP determined the employee’s death was covered under FECA
    and approved more than $3,300 in monthly survivor benefits for the employee’s dependent. GAO’s FECA
    case file did not contain any information concerning the employee’s death or his or her surviving
    dependent. According to OWCP compensation data, more than $140,800 in recurring compensation
    payments has been paid since the employee’s death, without evidence to support the initial or continuing
    claim for benefits.
    According to GAO management officials, the documentation concerning the employee’s death or his or her
    dependents would have no effect on the adjudication of the claim. A different case illustrates the
    importance of maintaining information concerning the employee’s surviving beneficiary. We recently
    determined that the surviving dependent receiving death benefits was deceased for several months, but
    payments continued through September 2014. Although GAO plays no role in survivor benefit decisions, it
    can still provide evidence for OWCP to consider. If GAO had been monitoring this case, the improper
    payments to a deceased dependent may have been prevented.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data.


GAO has not established or implemented operating procedures and guidance for workers’
compensation records management. Without such procedures and guidance, it would be
difficult to ensure that valid death benefits are paid in accordance with FECA
requirements.

Recent HCO Actions

HCO has taken a number of actions to address some of the internal control weaknesses
that limit effective workers’ compensation case management and program oversight. For
example, according to the HCO Director of Employee Relations and Benefits, HCO
established a work log to track and monitor all OWCP cases; implemented a quarterly
review comparing the cases listed on the chargeback report to the case files to ensure that
readily available files are maintained; reviewed all cases to assess their current status and
to determine what missing and additional documentation was required from DOL; and
visited DOL to obtain missing file documentation for certain cases. In addition, HCO
received approval for OWCP training for Benefit Specialists in December 2014. In April


Page 11                                                                         OIG-14-2 Federal Employees’ Compensation Act
2014, HCO hired a benefit specialist whose major duties include, among other things,
administering GAO’s workers’ compensation program. On September 10, 2014, GAO’s
CHCO and Chief Information Officer signed a Memorandum of Understanding with DOL to
use its electronic claims filing system, known as the Employees’ Compensation
Operations and Management Portal (ECOMP). ECOMP will enable GAO to electronically
access information about its claimants, such as up-to-date medical information, that the
office currently does not have ready access to in every case.

Efforts to Identify Employees for Re-employment and Pursue Options to Return Them to
Suitable Work Are Limited

Injured workers who are medically able to return to work 21 (with or without
accommodation) are expected to return to gainful employment when work is made
available. Those who do not do so are no longer eligible for disability compensation under
FECA. DOL, in collaboration with the Protecting Our Workers and Ensuring
Reemployment (POWER) Return to Work Council, 22 identified strategies that federal
agencies may use to increase the likelihood of an employee’s return to work. 23 These
include best practices such as:
•   initial and follow-up contact with employees to identify restrictions for a modified work
    arrangement;
•   contact with physicians to provide them with materials explaining the program and the
    availability of modified work positions; and
•   communication within the agency among individuals with varying important roles in the
    success of a return-to-work program, such as upper-level managers, supervisors,
    human resources, disability program managers, and medical professionals.

The FECA regulations contemplate several available strategies to monitor an injured
worker’s progress toward returning to work. The regulations make explicit actions which
agencies may undertake in monitoring FECA files. These actions should be exercised,
when appropriate, because there are divergent incentives in returning injured employees
to work.

    Contact with Treating Physicians to Determine Work Limitations is Infrequent

Federal regulations 24 state the employer may monitor the employee's medical progress
and duty status by obtaining periodic medical reports. To aid in returning an injured
employee to suitable employment, the employer may also contact the employee's
physician in writing concerning the work limitations imposed by the effects of the injury and

21
   The term “return to work” as used in this report is not limited to returning to work at the employee's normal
worksite or usual position, but may include returning to work at other locations and in other positions, including
alternative employment in other federal agencies or the private sector.
22
   The POWER Return to Work Council is composed of select senior officials with oversight responsibilities for
workers’ compensation. Ad Hoc Council members include the Office of Personnel Management, the Office of
Disability Employment Policy, the Occupational Safety and Health Administration, and the Computer/Electronic
Accommodations Program.
23
   Department of Labor, Best Practices in Return to Work for Federal Employees Who Sustain Workplace Injury
or Illness: A Guide For Agencies.
24
   20 CFR § 10.506.




Page 12                                                     OIG-14-2 Federal Employees’ Compensation Act
possible job assignments. GAO’s workers’ compensation policy authorizes GAO to contact
the employee’s physician to help structure an assignment that accommodates the
employee’s limitations and restrictions, if any exist. 25
In a report on return to work strategies, GAO reported that contact with medical service
providers was among the key practices agencies had at their disposal to manage return-
to-work programs for disabled employees. 26 In addition, GAO reported that this
communication helps the physician understand a disabled employee’s essential job
functions when deciding whether to clear the employee to return to work. 27 GAO further
noted that this communication also helps the physician understand any transitional work
opportunities or other job accommodations that the employer would be willing to provide.
Otherwise, according to GAO, the physician may not clear the employee to return to work
until he or she can function at pre-disability levels. 28
Our review of 13 workers’ compensation case files for GAO’s employees receiving wage-
loss compensation identified 2 employees with no evidence in their files that GAO
contacted their physicians to determine return to work potential. For the 11 cases that had
evidence of physician contact, these contacts occurred anywhere from 5 to more than 12
years ago. (See figure 8.)

Figure 8: Elapsed Years Between the OIG Review of GAO FECA Files and the Last Follow-up with
Employees’ Treating Physicians Found in Wage-Loss Compensation Case Files




An employee’s treating physician generally has the most knowledge about the employee’s
work-related medical condition, as well as any non-work related medical issues, and
recommends specific treatment options for the employee. Without regular contact with

25
     GAO Order 2810.1.
26
   GAO, Return-to-Work Strategies From Other Systems May Improve Federal Programs, GAO/HEHS-96-133
(Washington, D.C.: July 1996).
27
   GAO/HEHS-96-133.
28
     GAO/HEHS-96-133.




Page 13                                             OIG-14-2 Federal Employees’ Compensation Act
physicians, GAO may miss opportunities to identify jobs suitable for injured employees
and take steps to reemploy them as soon as medically possible.
Figure 9 illustrates a case of infrequent contact with a treating physician to determine work
limitations.

Figure 9: Example of No Follow-Up with Treating Physician Hindering Potential Re-employment
 A GAO employee was injured at work in 1994 and eventually returned to part-time employment in 1997. In
 1999, the employee separated from GAO on disability retirement. In 2001, an HCO employee benefit
 specialist sent a letter to the employee’s physician requesting the physician complete a GAO Work
 Capacity Evaluation Form and stating that GAO was in the process of reviewing all of its work-related injury
 claims with the intent of returning individuals to work in their former positions or creating modified job
 assignments. The letter, however, did not address the fundamental job duties of the position the employee
 held, or other job accommodations that the agency was willing to provide. The physician’s completed form
 only indicated that the employee was unable to work, with no medical reasons given to support the
 physician’s opinion. For example, the physician gave no indication whether the employee would be able to
 work a modified schedule, how long the employee’s restrictions would apply, whether maximum medical
 improvement had been reached, or whether there were other medical facts, situational factors, equipment,
 or devices that needed to be considered in identifying a position for the employee. There is no evidence in
 the file that GAO followed up with a targeted letter to the physician to clarify or obtain additional information
 about the employee’s duty status or medical progress.
 By not following up with the physician, GAO did not have the information it needed to evaluate whether a
 job offer was appropriate, with or without accommodations. Between June 1, 2002, and December 14,
 2013, GAO paid more than $489,100 in compensation and $241,600 in medical expenses for this case.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data.

GAO’s policy does not define operational guidance or procedures that describe what
medical information the agency considers necessary and relevant for determining work
restrictions; how to contact physicians to obtain that information; or what offices and
individuals to involve for their relevant technical expertise—such as the Reasonable
Accommodation Coordinator; the Accommodation Committee; and the Chief
Administrative Officer. Furthermore, GAO’s policy does not clearly establish guidance or
procedures for monitoring OWCP’s plans for employees’ return to work with a new
employer, in cases where efforts to return the employee to work with GAO are not
successful.

       Injured Employees are Not Referred to Physician Specialists to Help Determine
       Potential to Resume Employment

Federal regulations 29 state that an agency may require an employee to report for an
examination to determine medical limitations that may affect placement decisions, if the
employee applies for or receives benefits as a result of an on-the-job injury or disease. In
addition, the regulations 30 state that an agency has the option to offer a medical
examination (including a psychiatric evaluation) in any situation where it needs additional
medical documentation to make an informed management decision. GAO’s workers’
compensation policy states that the agency may refer an employee to a physician
specialist of its choosing to help it make such a determination.
Our review of 13 wage-loss compensation case files showed no evidence that GAO had
referred any of the employees to a physician specialist for examination. While referrals to

29
     5 C.F.R. § 339.301(c); 20 C.F.R. 10.320-10.324.
30
     5 C.F.R. § 339.302.




Page 14                                                                         OIG-14-2 Federal Employees’ Compensation Act
a physician specialist should be considered on a case-by-case basis, such referrals can
help GAO make an informed employment decision. Without this information, the agency
may miss opportunities to return employees to suitable work.
GAO’s policy does not include operational procedures or guidance for making a referral or
for taking action based on the medical evidence obtained.
Figures 10 and 11 illustrate case outcomes when injured employees are not referred to
physician specialists to help determine their potential to resume employment.




Page 15                                        OIG-14-2 Federal Employees’ Compensation Act
Figure 10: Example of No Referral to a Physician Specialist to Help Determine Potential Re-
employment
 A GAO employee was injured while on official duty in 1984. The employee subsequently was separated
 from GAO service through termination-disability in 1985. Notes in the file indicated that, in 1991, the
 employee’s physician assessed him or her as totally disabled; however, in 2000, an OWCP rehabilitation
 and disability management consultant noted in a report that documentation of the employee’s medical
 condition lacked evidence of total disability. In addition, the consultant noted that previous attempts at re-
 employment were unsuccessful, in part, due to the employee’s insistence that his or her primary
 responsibility was childrearing and he or she would consider only home-based employment. The
 consultant further noted that the employee appeared unmotivated to return to competitive employment,
 and the basis of the employee’s alleged disability was difficult to assess objectively and was in great part
 based on the employee’s self-report. The consultant finally noted that efforts to investigate or develop a
 light duty job offer would not be worthwhile unless OWCP was willing to solicit a current (and objective)
 second medical opinion of the employee’s diagnoses and functional capacity, and GAO could offer
 permanent modified employment. The consultant noted that this claim implied significant financial
 exposure. There is no evidence in the case file that GAO referred the employee to a physician specialist
 to help make a determination regarding potential reemployment.
 By not referring the employee to a specialist as suggested, GAO missed an opportunity to determine the
 employee’s re-employment options. Between June 1, 2002, and December 14, 2013, GAO paid more
 than $424,250 in compensation and $81,480 in medical expenses.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data.



Figure 11: Example of No Referral to a Physician Specialist to Help Determine Potential Re-
employment
 A GAO employee was injured at work in 1985 and was separated from GAO service on termination-
 disability in 1987. In 1998, OWCP referred the employee for a second medical evaluation by a specialist,
 whose report noted that the injuries for which the employee was receiving benefits had “long since
 resolved,” and “there was no need for any further treatment” for the injuries. The specialist completed a
 work capacity evaluation form indicating that the employee could work 8 hours per day with lifting
 restrictions for 4-6 weeks. In 1999, GAO OIG asked HCO what it had done to return the employee to work
 in some capacity. HCO stated that nothing had been done because of a medical issue unrelated to the
 employee’s work-related injury, and said it would discuss the case with the Office of General Counsel.
 There is no evidence in the file of communications between HCO and the Office of General Counsel
 about this case. In addition, there is no evidence in the file that GAO referred the employee to a physician
 specialist to evaluate the medical issue unrelated to the employee’s work-related injury and to determine
 his or her potential to work.
 By not referring the employee to a specialist, GAO missed an opportunity to determine the employee’s re-
 employment options. Between June 1, 2002, and December 14, 2013, GAO paid more than $291,700 in
 compensation and $22,900 in medical expenses.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data.


       Contact with Injured Employees to Assess Their Ability to Return to Work is
       Infrequent

Federal regulations 31 state that an employer may contact an employee at reasonable
intervals to request periodic medical reports addressing his or her ability to return to work.
GAO workers’ compensation policy states that unit heads, after consultation with HCO,
may at reasonable intervals request that the employee provide them with periodic medical
reports from their physician addressing the employee’s ability to work. 32




31
     20 C.F.R §10.506.
32
     GAO Order 2810.1.




Page 16                                                                         OIG-14-2 Federal Employees’ Compensation Act
In a report, GAO highlighted the importance of establishing early contact and staying in
touch with disabled employees to help maintain their motivation to return to work. 33 The
report noted that contacting an employee helps reassure him or her that there is a job to
return to, and that the employer is concerned about his or her recovery.
We found that GAO’s contacts with injured employees receiving wage-loss compensation
were infrequent. Out of the 13 wage-loss compensation case files, 10 did not have
evidence in their FECA files that GAO contacted the employees. For the 3 cases that had
such evidence, the most recent contacts were over 16 years ago in the first case, over 19
years in the second case, and in third case, 36 years ago.
GAO’s policy does not establish operating procedures or guidance on how to initiate
contact or implement information received from those contacts.
Figure 12 illustrates a case of infrequent contact with an injured employee preventing GAO
from assessing the employee’s ability to return to work.

Figure 12: Example of No Contact with Employee Preventing GAO from Assessing the Employee’s
Ability to Return to Work
 An employee, who was 79 years old, as of December 14, 2013, sustained an injury in 1976. In 1978, the
 employee notified GAO that the doctor had released him or her to return to work. GAO informed the
 employee that a medical statement from the physician was needed indicating that the employee was
 completely well and able to continue his or her duties on a full-time basis. GAO subsequently received a
 signature-stamped medical statement from the employee’s physician indicating that the employee was
 presently receiving no treatment and that the employee could return to work on a full-time basis with no
 restrictions. Within 5 days, the employee reported to work and was informed that the doctor’s report was
 not acceptable because it lacked an original signature on the medical statement and additional information
 was needed before the employee could return to work. The following day the employee voluntarily
 resigned, citing tensions created by an intolerable work environment. There is no evidence in the case file
 indicating that GAO contacted the employee in the last 36 years.
 Because GAO did not maintain communication with the employee, GAO did not remind the employee that
 he or she was expected to seek re-employment within his or her medical restrictions, possibly with another
 government agency or private employer. Between June 1, 2002, and December 14, 2013, GAO paid more
 than $232,350 in compensation and $62,550 in medical expenses.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data.


Third-Party Liability Cases Not Monitored to Minimize GAO’s Workers’
Compensation Program Costs

In some FECA-covered cases, a third party may be found legally liable for damages. The
potential for third-party liability exists in a variety of situations. For instance, the driver of a
vehicle causing an accident in which an employee is injured, the owner of a building where
unsafe conditions cause an employee to fall, and a manufacturer whose defective product
causes an employee's injury, could all be considered third parties to the injury. FECA
requirements 34 state that the Secretary of Labor may require the employee to pursue the
case personally or assign it to the United States for prosecution. If the employee (or the
beneficiary, in the event of death) is required to do this and refuses, he or she is no longer
entitled to FECA compensation. FECA also has specific requirements 35 for cases in which
damages are recovered. After deducting the cost of the subrogation lawsuit and a

33
     GAO/HEHS-96-133.
34
     5 U.S.C. § 8131.
35
     5 U.S.C. § 8132.




Page 17                                                                         OIG-14-2 Federal Employees’ Compensation Act
reasonable attorney’s fee from the damages awarded in the lawsuit, the employee must
refund to the federal government the total amount of FECA compensation it paid, and
credit the remainder of the damage award against any future compensation payable for
that claim.
GAO’s workers’ compensation policy only briefly describes procedural steps that
employees and supervisors should take to report a potential third-party case before a
third-party case is prosecuted. 36 This information is located in a question-and-answer
chapter of the order. According to Standards for Internal Control in the Federal
Government, 37 management is responsible for developing detailed policies, procedures
and practices to fit agency operations. GAO’s workers’ compensation policy, however,
does not establish detailed policies and procedures for managing, collecting and
documenting information about, and overseeing third-party cases after damages have
been recovered.
Our review of 31 workers’ compensation cases identified three cases resulting in third
party recoveries. None of these cases had evidence in the file to demonstrate that HCO
had obtained a statement of recovery, which would confirm, among other things:
•      the gross amount of damages awarded;
•      the amount of damages retained by the injured employee;
•      all compensation and medical benefits paid by GAO;
•      the amount to be refunded to GAO; and
•      any surplus damages, if any, against which future compensation payments must be
       credited.

Without this information, it is difficult to ensure recovered funds are properly credited to
GAO and costs of the program are minimized.
Figure 13 illustrates a third-party case resulting in recoveries with no statement of recovery
to help GAO determine how much money it should have received.




36
     GAO Order 2810.1.
37
     GAO/AIMD-00-21.3.1.




Page 18                                            OIG-14-2 Federal Employees’ Compensation Act
Figure 13: Example of a Third-Party Settlement with Missing Statement of Recovery
    An employee, who was 50 years old, as of December 14, 2013, was injured on the job by a third party in
    1992. In 1996, the employee was separated from GAO service through a removal for unavailability for
    duty. In 1996, the attorney who handled the third-party lawsuit sent a check for $25,196, with a notation on
    the check indicating the full and final lien payment, to the Department of Labor’s Office of the Solicitor. In a
    letter from the Department of Labor’s Solicitor to the attorney, the Solicitor stated that the Office was
    unable to close its file because it had not received a statement of recovery reflecting the full distribution of
    the third-party settlement. The letter also stated that the full distribution of the settlement was needed to
    determine the exact amount of the refund due and to establish a third-party credit. In 2008, an HCO human
    capital specialist sent a letter to the OWCP claims examiner requesting “an explanation of the third-party
    check (whose account and when this amount applied).” The letter, however, did not request a copy of the
    statement of recovery, which would confirm, among other things, the gross amount of damages awarded
    and the amount to be refunded to GAO. The claims examiner’s written reply instructed the human capital
    specialist to contact the National Office for that information. There is no evidence in GAO’s workers’
    compensation file that the human capital specialist followed up with the National Office to request the
    statement of recovery.

    Without a statement of recovery, it is difficult to ensure that recovered funds are properly credited to GAO
    and costs of the program are minimized. Between June 1, 2002, and December 14, 2013, the employee
    received more than $934,400 in compensation benefits and medical expenses.
Source: GAO Workers’ Compensation Case File and OIG analysis of OWCP’s Integrated Federal Employees’ Compensation System data.


Policy Intended to Prevent, Identify, and Report Potential Fraud for Investigation
Lacks Specific Fraud-Prevention Controls and Is Outdated

FECA regulations state that employees who obtain benefits fraudulently could be
prosecuted. 38 If the employee is convicted, his or her compensation benefits would be
terminated. GAO’s work examining FECA fraud-prevention controls has identified several
promising practices that could help to reduce the risk of fraud within the FECA program. 39
GAO reported that the promising practices link back to fraud-prevention concepts
contained in GAO’s Fraud Prevention Framework and Standards for Internal Control in the
Federal Government, 40 and include:
•      having full-time staff dedicated to the FECA program;
•      periodically reviewing claimants’ eligibility;
•      analyzing data for potential fraud indicators; and
•      effectively using investigative resources.
Further, GAO reported that these promising practices have resulted in successful
investigations and prosecutions of FECA-related fraud at some agencies, and could help
to further enhance the program’s fraud-prevention controls.
Current GAO policy requires all employees to promptly refer any suspected criminal
misconduct or other serious wrongdoing in a GAO program to GAO’s OIG. 41 GAO’s
Standards for Internal Control in the Federal Government emphasize that policies and

38
     20 C.F.R. 10.16(a).
39
   GAO, Federal Employees’ Compensation Act: Preliminary Observations on Fraud-Prevention Controls,
GAO-12-402 (Washington, D.C.: Jan. 25, 2012).
40
   GAO-12-402 and GAO/AIMD-00-21.3.1.
41
 GAO Order 1130.1, Handling Information That May Indicate Criminal Misconduct Or Serious Wrongdoing In
Federal Programs or Operations (November 16, 2010).




Page 19                                                                         OIG-14-2 Federal Employees’ Compensation Act
procedures should be periodically reviewed for continued relevance and effectiveness and
updated as needed. GAO’s workers’ compensation policy states that when case review or
other sources identify instances of potential fraud, HCO will compile available information,
immediately refer the matter to Labor’s OIG for investigation, and continue to closely
monitor the case until it is resolved. 42 However, HCO has not established specific fraud-
prevention controls which may help to prevent and detect potential FECA fraud. In
addition, GAO’s workers’ compensation policy does not reflect current GAO policy and
procedures for reporting potential fraud to GAO’s OIG, as required. As a result, potential
FECA fraud, waste, and abuse could go undetected by HCO and unreported to GAO OIG.
Based on our review of 31 workers’ compensation cases, four cases of potentially
fraudulent claims are under review by our Office of Investigations to determine whether an
investigation or other action is warranted.

Conclusions

GAO’s workers’ compensation program is intended to provide case management and
oversight services to, among other things, offer job opportunities that will return employees
to work as soon as medically possible and to prevent inappropriate benefits and
unnecessary costs. While OWCP has responsibility for adjudicating claims for benefits, the
employing agency (i.e., GAO) has primary financial and management responsibility for
administering its own FECA cases. This is accomplished through active case management
controls and activities such as monitoring medical information and staying in touch with
injured employees and their treating physicians, identifying suitable jobs, and returning
them to work as soon as possible. However, GAO lacks properly designed controls—
operational procedures, guidance, and fraud-prevention controls—to ensure the agency
pays only valid claims for continuation of benefits and employees return to work when
able. Without effective controls, GAO lacks reasonable assurances that its FECA program
costs are minimized and potential program fraud is prevented.

Recommendations

We recommend that the Comptroller General direct the Chief Human Capital Officer to
immediately take the following five actions:
1. Develop and implement operational procedures that include specific case
   documentation procedures to be followed by HCO case management specialist to help
   ensure HCO maintains
     •   Case files documenting the history and status of all GAO employees receiving
         workers’ compensation benefits. The procedures should, at a minimum, outline
         responsibilities for visiting OWCP to assure GAO’s files are complete.
     •   Sufficient up-to-date information on all employees receiving workers’ compensation
         benefits. The procedures should, at minimum, outline responsibilities for
         maintaining medical information, timeframes for collecting and evaluating medical
         information, content of medical evidence, and follow-up actions if medical evidence
         is not received within specified timeframes.

42
  Fraud is the intentional deception that could cause detriment to others or to the government. Fraud includes
a false representation, by false or misleading statements or by concealment of a fact with the intention to
deceive. Fraud also includes misappropriation of GAO assets or resources.




Page 20                                                    OIG-14-2 Federal Employees’ Compensation Act
2. Develop and implement clearly defined procedures that establish a framework and
   delineate responsibilities within GAO for identifying candidates for re-employment and
   developing re-employment strategies that foster improved return to work outcomes.
3. Develop and implement policy and procedures addressing the responsibilities of GAO
   employees and management in identifying and reporting potential third-party liability
   claims, and the case management and oversight responsibilities of HCO to help
   ensure GAO is reimbursed from recoveries.
4. To help reduce the risk of and identify potential fraud within GAO’s program, establish
   specific workers’ compensation fraud-prevention controls to help reduce the risk of and
   identify potential fraud within GAO’s program.
5. Update the existing workers’ compensation policy to reflect current GAO policy
   requiring all GAO officers and employees to promptly notify the GAO OIG concerning
   the possible existence of FECA program fraud, waste, and abuse as outlined in GAO
   Order 1130.1.

Agency Comments and Our Evaluation

The Inspector General provided GAO with a draft of this report for review and comment. In
its written comments, reprinted in appendix III, GAO agreed with our recommendations,
but disagreed with some of the characterizations in the draft report. The agency also
provided technical comments that we incorporated, as appropriate.

Many of GAO’s comments reflect a fundamental difference between GAO’s views
regarding responsibility for management of FECA cases and our own. GAO believes, as
evidenced in its comments, that OWCP bears responsibility for managing GAO’s cases
and, when appropriate, finding suitable employment for individuals who can work. As
discussed in our report, both OWCP and GAO have important roles and responsibilities in
ensuring that continuing entitlement to workers’ compensation is valid and employees are
returned to work when able. The OIG believes that active case management is a team
approach and consists of more than just OWCP intervention. The OIG’s view that
management of GAO cases is a shared responsibility is based on GAO policy, best
practices, and GAO’s recommendations to other federal agencies to improve management
of their FECA programs. We believe that the best outcomes stem from an active team
approach where the OWCP, GAO, the employee, and medical providers use all available
tools to ensure medical recovery and a sustainable return to work. Because OWCP
manages thousands of cases government-wide and GAO’s appropriated dollars are paid
out to benefit recipients, we believe that GAO must take an active role in case
management if program costs are to be effectively managed.
As an initial matter, GAO asserted that our report could lead readers to believe that GAO
incurs over $20 million in FECA program costs annually. Our report identifies the annual
costs of the program and addresses the specific time period for which cumulative costs
are discussed.
In its comments, GAO asserted that our report gives the erroneous impression that it has
paid claims that were unauthorized, fraudulent, or otherwise invalid. Our report revealed
some unauthorized compensation and benefit payments, possible fraudulent activity that
we have referred to OIG investigative staff. In addition, our report revealed that GAO has
not effectively managed its FECA program to ensure that claims for continuation of
benefits were valid and no instances in which the initial claims appeared to have been
invalid.


Page 21                                         OIG-14-2 Federal Employees’ Compensation Act
GAO commented that the presentation of findings leads readers to believe that issues
identified occurred recently. As discussed in our report, we reviewed and analyzed the full
period for which case file information was available, including medical information. In
addition, we reviewed the agency’s most recent efforts to identify employees for
reemployment and to pursue options to return them to suitable work. Timeframes and
years of actions in specific cases are identified in the case examples.
In addition, GAO commented that the agency does not believe that any individuals
currently on the long-term rolls could be successfully returned to work because of
advanced age and the length of time in disability status. The agency notes that four such
individuals have no wage-earning capacity or reasonable prognosis for improvement. As
our report highlights, GAO generally did not use best practices that GAO and others have
found to increase the likelihood of employees’ return to work before decisions were made
regarding the work capacity of these individuals. We believe this contributed to employees
remaining on the long-term rolls at or beyond retirement age. As discussed in our report,
the current case status for the majority of individuals on the long-term rolls does not reflect
that they have no wage-earning capacity. While GAO noted that it had determined that the
likelihood was extremely low for returning to work those employees who had been on the
workers’ compensation rolls for many years, GAO could not provide documentation
supporting this determination. Although program costs are borne by the agency, not
OWCP, GAO did not effectively respond to this financial incentive by taking effective
action to ensure that continuing benefit eligibility was valid and opportunities for suitable
employment were pursued. We believe it is incumbent upon GAO to actively manage its
workers’ compensation program. In 2003, HCO requested OGC Legal Services to review
GAO’s workers’ compensation program and make recommendations in an effort to control
or reduce program costs. The OGC analysis and recommendations directly parallel those
of the current OIG review of the agency’s FECA program.
GAO commented that we criticize the agency for not maintaining duplicate copies of the
records OWCP uses to decide entitlement to survivor benefits. GAO also asserted that
OWCP requires individuals receiving survivor benefits to submit information annually to
OWCP, but not to the employing agency, regarding continuing eligibility for benefits.
However, as discussed in our report, GAO’s workers’ compensation policy directs HCO to
maintain case files documenting the history and status of all GAO employees receiving
workers’ compensation benefits. As we illustrated in our report, if GAO had been
monitoring its death benefit cases, improper payments to a deceased dependent may
have been identified and prevented.
GAO also commented that our report figures (i.e., case studies) present incomplete
information. Specifically, GAO commented that
•   Figure 6 did not address OWCP’s failure to respond to GAO’s request. Our report
    states that GAO did not have evidence in its workers’ compensation file documenting
    key decisions or resolution of issues identified in correspondence between HCO,
    Office of General Counsel, and OWCP. As a result, HCO lacked documentation
    needed to prevent or identify improper payments that continued for 17 years after the
    claimant transferred to another agency.
•   Figure 7 faulted GAO for not maintaining documentation concerning an employee’s
    death or the number of dependents, and the possession of such documents would
    have no effect on the adjudication of the claim. As highlighted in our report, GAO’s
    workers’ compensation policy requires HCO to maintain case files documenting the
    history and status of all GAO employees receiving workers’ compensation benefits.



Page 22                                           OIG-14-2 Federal Employees’ Compensation Act
    We recently determined that a family member receiving survivor death benefits had
    been deceased for several months, but compensation benefit payments continued
    through September 2014. We stated that although GAO plays no role in survivor
    benefit decisions, it can still provide evidence for OWCP to consider as a result of its
    monitoring activities. If GAO had been monitoring this case, the improper payments
    may have been prevented.
•   Figure 9 provided no evidence to support that further inquiry with the claimant’s
    physician would have yielded a different result. As our report indicates, GAO did not
    obtain the relevant medical information necessary to identify work restrictions and
    evaluate whether a job offer was appropriate. Consequently, GAO lacked support that
    further inquiry with the claimant’s physician would have yielded a different result.
•   Figures 10 and 11 did not recognize the fact that OWCP did not refer the claimants to
    specialists. Regardless of OWCP’s action, as our report indicates, GAO did not
    exercise its own authority to refer the employees to a physician specialist to determine
    medical limitations that affected placement decisions.
•   Figure 12 did not address the fact OWCP placed the claimant in PN status, meaning
    that the claimant has no wage-earning capacity and no reasonable prognosis for
    improvement. As our report shows, 36 years ago, the employee’s disability had ceased
    and no residuals of the employment-related injury remained which prevented the
    employee from performing the regular duties of his or her position at the time of injury.
    As our report indicates, GAO has continued to pay the wage-loss compensation after
    the employee’s full recovery from a work-related injury and has not been in contact
    with the employee in 36 years.
•   Figure 13 shows no link between a third-party liability case and a claimant’s
    entitlement to ongoing benefits. As discussed in our report, this example is intended to
    illustrate the impact GAO’s weak third-party liability case management and program
    oversight policy and practices have had on its ability to minimize the agency’s workers’
    compensation program costs. As our report indicates, GAO’s lack of follow-up with
    DOL’s Office of the Solicitor make it difficult to ensure that recovered funds are
    properly credited to GAO and costs of the program are minimized.




Page 23                                           OIG-14-2 Federal Employees’ Compensation Act
Appendix I: Objective, Scope and Methodology
This report addresses the extent to which GAO has effectively managed its Federal
Employees’ Compensation Act (FECA) program to ensure that it pays only valid claims for
continuation of benefits and that employees are returned to work when able. To achieve
our audit objective, we identified and reviewed applicable policies, procedures,
professional standards, laws, and regulations. We interviewed Human Capital Office
managers and staff who administer GAO’s FECA program. In addition, we met with GAO’s
Chief Human Capital Officer (CHCO) and Deputy CHCO, the Director of Employee
Relations and Benefits, and Office of the General Counsel, Legal Services attorneys to
obtain their perspectives on GAO policies and procedures for workers’ compensation case
management and oversight.

We reviewed GAO’s Chargeback Billing List Detail for July 1, 2012 through September 30,
2013 to determine the number of current and former employees receiving wage-loss
compensation, medical benefits only, and death benefits. The Chargeback Billing List is a
statement containing the names of, and costs for, current and former GAO employees
receiving FECA benefits. We identified 31 individuals receiving benefits and reviewed
available case files for these individuals to determine whether they contained current
information documenting their eligibility for benefits and evidence of efforts to return
employees to work, if applicable. We used GAO’s Standards for Internal Control in the
Federal Government, 43 GAO’s workers’ compensation policy, and federal laws and
regulations governing FECA to determine whether GAO has established effective internal
controls for case management and oversight.

We obtained and analyzed compensation and bill payment history electronic data from the
Department of Labor’s Integrated Federal Employees’ Compensation System (iFECS),
from June 15, 1978 to December 14, 2013, for all 31 employees. To test the reliability of
the data, we performed electronic testing of select data elements to check for: missing
data—either missing records or missing values in key data elements; duplicate records;
invalid or duplicate unique identifiers; dates outside valid time periods; and values in key
data elements outside a designated range. In addition, we reviewed related documentation
and interviewed DOL Office of Workers’ Compensation Programs (OWCP) Division of
Federal Employees’ Compensation officials who are knowledgeable about the data and
iFECS. To assess the accuracy of key data elements, we selected a simple random
sample of 60 (of 3,043) compensation and 60 (of 10,831) bill payment transactions 44 that
occurred for the 31 employees between June 1, 2002 and December 14, 2013—the most
current timeframes for which data were available at the time we initiated our audit. We
compared these payments with record-level compensation and bill payment data in
OWCP’s Agency Query System. We determined that the data was sufficiently reliable for
the purposes of this report.

We conducted this performance audit from September 2013 through September 2014 in
accordance with generally accepted government auditing standards (GAGAS), except for
the quality control and assurance standard requiring an external peer review of our audit

43
   GAO, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 (Washington, D.C.:
November 1999).
44
   We calculated the sample size of 60 compensation transactions and 60 bill payment transactions assuming a
binomial distribution for a proportion estimate, an expected error rate of 0 percent, an upper error limit of 5
percent, and a 95 percent confidence level.




Page 24                                                   OIG-14-2 Federal Employees’ Compensation Act
organization every three years. This exception did not affect the planning or performance
of our audit. The Office of Inspector General is scheduled for a peer review in fiscal year
2015. GAGAS requires that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




Page 25                                         OIG-14-2 Federal Employees’ Compensation Act
Appendix II: Age and Costs of GAO’s Workers’ Compensation Cases, as of
December 14, 2013




Page 26                                  OIG-14-2 Federal Employees’ Compensation Act
Appendix III: Comments from the U.S. Government Accountability Office




Page 27                                   OIG-14-2 Federal Employees’ Compensation Act
Page 28   OIG-14-2 Federal Employees’ Compensation Act
Page 29   OIG-14-2 Federal Employees’ Compensation Act
Page 30   OIG-14-2 Federal Employees’ Compensation Act
Page 31   OIG-14-2 Federal Employees’ Compensation Act
Appendix IV: Major Contributors to This Report

Key contributors to this report were Sandra Burrell and Cynthia Hogue. Technical
assistance was provided by James Ashley, Jill Lacey, Ying Long, Minette Richardson, and
Gloria Hernandez-Saunders.




Page 32                                       OIG-14-2 Federal Employees’ Compensation Act
Appendix V: Report Distribution

U.S. Government Accountability Office
Gene Dodaro – Comptroller General
Patricia Dalton – Chief Operating Officer
Karl Maschino – Chief Administrative Officer/Chief Financial Officer
Susan Poling – General Counsel
Carolyn Taylor – Chief Human Capital Officer
Daphne Williams – Director, Employee Relations and Benefits
Joan Hollenbach – Legal Services Managing Associate General Counsel
William Anderson – Controller/Deputy Chief Financial Officer
Adrienne Walker – Director, Program Analysis and Operations
Adebiyi Adesina – Special Assistant to the Controller
Katherine Siggerud – Managing Director, Congressional Relations
Tim Bowling – Chief Quality Officer
Charles Young – Managing Director, Public Affairs


GAO Audit Advisory Committee Members




Page 33                                     OIG-14-2 Federal Employees’ Compensation Act
                      To report fraud and other serious problems, abuses, and deficiencies
Reporting Fraud,      relating to GAO programs and operations, do one of the following. (You
Waste, and Abuse in   may do so anonymously.)

GAO’s Internal        •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
Operations                available 24 hours a day, 7 days a week.

                      •   Online at: https://OIG.alertline.com.

                      To obtain copies of OIG reports and testimony, go to GAO’s website:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony




                          Please Print on Recycled Paper.
